NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL




          Semiannual Report
            to the Congress
        April 1, 2005 – September 30, 2005
                                             TABLE OF CONTENTS

INSPECTOR GENERAL’S MESSAGE……………………………………………...                                                                                i

NCUA AND OFFICE OF INSPECTOR GENERAL MISSION STATEMENTS…...                                                                    1

INTRODUCTION……………………………………………………………………..                                                                                       2

NCUA ORGANIZATION CHART……...…………………………………………...                                                                                4

NCUA HIGHLIGHTS…...............................................................................................                5

FEDERALLY INSURED CREDIT UNION HIGHLIGHTS.......................................                                               7

LEGISLATIVE HIGHLIGHTS....................................................................................                     8

OFFICE OF THE INSPECTOR GENERAL................................................................                                10

          Audit Activity....................................................................................................   11

          Investigative Activity…….................................................................................            15

          Legislative and Regulatory Reviews……….....................................................                           20

TABLE I – REPORTS WITH QUESTIONED COSTS…………………...................                                                              22

TABLE II – REPORTS WITH RECOMMENDATIONS THAT FUNDS BE PUT
TO BETTER USE.........................................................................................................         23

TABLE III – SUMMARY OF OIG ACTIVITY...........................................................                                 24

INDEX OF REPORTING REQUIREMENTS………………………………………..                                                                               25
                     INSPECTOR GENERAL'S MESSAGE TO
                    THE NCUA BOARD AND THE CONGRESS


I am pleased to transmit to the NCUA Board and the Congress the Office of Inspector General’s
(OIG) Semiannual Report for the period April 1 through September 30, 2005. The submission of
this report is in accordance with the Inspector General Act of 1978, as amended (IG Act).
Section 5 of the IG Act requires that the Chairman transmit this report to the appropriate
committees or subcommittees of the Congress within 30 days of its receipt.

This past reporting period witnessed one of the most devastating natural disasters our country has
ever experienced. Hurricane Katrina and its aftermath closed 139 credit unions in Louisiana,
Mississippi, and Alabama when it struck on August 29. NCUA quickly established an
emergency response policy and has reported that by September 16, all credit unions in the
affected area had returned to operation. The OIG is participating in monthly meetings with the
other federal financial institution regulatory inspectors general to monitor the response of the
financial regulators to this tragedy.

During this past reporting period, the OIG issued three audit reports and an audit memorandum
on NCUA employees’ compliance with state income tax obligations. Audit reports issued
included a review of NCUA’s process for reviewing federally insured state chartered credit
unions; our annual independent evaluation of NCUA’s information security program, as required
by the Federal Information Security Management Act; and a report to the Office of Management
and Budget (OMB) summarizing our evaluation of the agency’s information security program
presented in the OMB prescribed format.

Also during this reporting period, the Office of Investigations experienced a marked increase in
the number of matters referred or reported for investigative consideration. During this period we
initiated eight new investigations and closed six. Investigation reports issued this period
involved the use of non-public information for personal gain; false statements; and time and
attendance fraud.

Recently, our office learned that the agency’s Office of Human Resources (OHR) had been
routinely disclosing the names of witnesses identified in OIG Reports of Investigation in
proposed disciplinary action letters resulting from our investigations. In a recent case, we
learned that the OHR was planning to send a letter of proposed removal to an employee who had


                                                i
been the subject of an OIG investigation. The letter contained the name of a witness in the
investigation. We notified the agency that we would not authorize the release of the witness’s
name, and the OHR disregarded this direction and released the name and large portions of the
witness’s testimony to the subject of the investigation. I have since met with the head of the
agency and made our position clear that the release of such information contained in OIG reports
is the decision of the OIG and that future proposal letters from the agency based on OIG Reports
of Investigation may not include witness names without the authorization of the OIG.

Also during this investigation, the issue arose of OIG staff’s access to requested documents. A
document was requested and withheld, at the direction of the same individual on whom we
reported a similar incident in our October 2000 Semiannual Report. I reported this incident to
the head of the agency, and made clear the OIG authority to have access, upon request and
without delay, to agency records and information.

There are many challenging issues facing NCUA in the near future and I look forward to
working with Chairman Johnson and the new, soon to be confirmed, NCUA Board members in
meeting these challenges.




                                            William A. DeSarno
                                            Inspector General




                                               ii
                          MISSION STATEMENTS




                            THE NCUA MISSION
NCUA’s charge is to foster the safety and soundness of federally insured credit
unions and to better enable the credit union community to extend the availability of
financial services for provident and productive purposes to all who seek such
service, while recognizing and encouraging credit unions’ historical emphasis on
extension of financial services to those of modest means.

The NCUA’s mission is accomplished by managing the National Credit Union
Share Insurance Fund in an efficient and prudent manner through an effective
supervision program and a regulatory environment that encourages innovation,
flexibility and continued focus on attracting new members and improving financial
service to existing members.



        THE OFFICE OF INSPECTOR GENERAL MISSION
The OIG promotes the economy, efficiency, and effectiveness of NCUA programs
and operations, and detects and deters fraud, waste, and abuse, thereby supporting
the NCUA’s mission of monitoring and promoting safe and sound federally
insured credit unions.

We accomplish our mission by conducting independent audits, investigations, and
other activities, and by keeping the NCUA Board and the Congress fully and
currently informed of our work.




                                         1
OIG Semiannual Report                                                      September 2005


                                 INTRODUCTION


T
       he National Credit Union Administration (NCUA) was established as an
       independent, federal regulatory agency on March 10, 1970. The agency is
       responsible for chartering, examining, supervising, and insuring federal credit
       unions. It also insures state-chartered credit unions that have applied for insurance
and have met National Credit Union Share Insurance requirements. The NCUA is funded
by the credit unions it supervises and insures. As of June 30, 2005, the NCUA was
supervising and insuring 5,494 federal credit unions and insuring 3,377 state-chartered
credit unions, a total of 8,871 institutions. This represents a loss of 78 federal and 65
state-chartered institutions since December 31, 2004, for a total loss of 143 credit unions
nationwide.


                              Federally Insured Credit Unions



     12000
     10000
       8000 4062       3980     3866    3735     3593   3442     3377
       6000                                                                       FISCUs
       4000                                                                       FCUs
               6566    6336     6118    5953     5776   5572     5494
       2000
           0
               1999    2000     2001    2002     2003   2004     2005

The NCUA operates under the direction of a Board composed of three members. Board
members are appointed by the President and confirmed by the Senate. They serve six-
year terms. Terms are staggered, so that one term expires every two years. The Board is
responsible for the management of the National Credit Union Administration, including
the NCUA Operating Fund, the Share Insurance Fund, the Central Liquidity Facility, and
the Community Development Revolving Loan Fund.

The National Credit Union Administration executes its program through its central office
in Alexandria, Virginia and regional offices in Albany, New York; Alexandria, Virginia;
Atlanta, Georgia; Austin, Texas; and Tempe, Arizona. The NCUA also operates the
Asset Management and Assistance Center (AMAC) in Austin, Texas. Please refer to the
NCUA organizational chart on page 4.

The NCUA Board adopted its 2005 budget of $147,996,144 on November 18, 2004. The
Full-Time Equivalent (FTE) staffing authorization for 2005 is 961, a reduction of 2
positions from the 2004 total of 963.



                                             2
OIG Semiannual Report                                                             September 2005



                                       NCUA Budget Dollars

       Millions
           160
           140
           120
           100
            80
            60
            40
            20
             0
                  1998      1999      2000      2001     2002      2003   2004     2005




                                    N C U A A u th o riz e d S ta ff
    1200

    1000

     800

     600

     400

     200

       0
           1998      1999          2000      2001       2002       2003    2004      2005




                                                  3
OIG Semiannual Report                      September 2005


                 NCUA ORGANIZATION CHART




                            4
OIG Semiannual Report                                                      September 2005



                              NCUA HIGHLIGHTS

ALL HURRICANE KATRINA AND RITA - AFFECTED CREDIT UNIONS
OPERATIONAL

Hurricane Katrina and its aftermath closed 139 federally insured credit unions in
Louisiana, Mississippi, and Alabama when it struck on August 29, 2005. By September
16, 2005, all 139 credit unions representing $3.4 billion in assets and 100 percent of area
members had returned to operation. While some credit unions may still be operating
from back-up sites, members have access to their funds. Likewise, the fifty federally
insured credit unions with assets totaling $1.9 billion that were temporarily closed due to
Hurricane Rita are all now operational in Louisiana and Texas. One of NCUA’s initial
steps after the hurricanes struck was to activate an emergency response policy
encouraging credit unions to assist affected institutions and consider all reasonable and
prudent actions that could help meet the critical financial needs of members and
communities.

BOARD MEMBER MATZ RESIGNS FROM NCUA’S BOARD

With her term having expired on August 2, 2005, NCUA Board Member Deborah Matz
submitted her resignation and left the agency on September 30, 2005. President George
W. Bush named Matz a recess appointee to the NCUA Board on January 22, 2002, and
the Senate confirmed her nomination on March 20, 2002. Before her appointment, Matz
was the Executive Officer at the Liaison Office for North America of the Food and
Agriculture Organization of the United Nations in Washington, D.C. In her resignation
letter Matz expressed her gratitude to the President for the “extraordinary opportunity” to
serve the credit union services sector.

PRESIDENT BUSH NOMINATES RODNEY E. HOOD TO THE NCUA BOARD

On April 29, 2005, President Bush announced his intention to nominate Rodney E. Hood
to the NCUA Board. His nomination was sent to the U.S. Senate on May 10, 2005.
Mr. Hood currently serves as the Associate Administrator of the Rural Housing Service at
the U.S. Department of Agriculture. Assuming confirmation, Hood would fill the second
Republican seat on the three-person board. NCUA’s current Board Chairman, JoAnn
Johnson, currently fills the first Republican seat on the Board. Hood’s term would expire
in 2009.

PRESIDENT BUSH NOMINATES GIGI HYLAND TO NCUA BOARD

One day after expressing his intention to nominate Gigi Hyland to serve as a Member of
the NCUA Board, President Bush made it official on September 30, 2005, and asked the
U.S. Senate to approve Hyland’s nomination for a six-year term. Hyland is the senior
vice president and general counsel for Empire Federal Credit Union in Albany, N.Y. If


                                             5
OIG Semiannual Report                                                  September 2005

confirmed, Hyland would fill the Democratic seat on the three-person board vacated by
Deborah Matz. Hyland’s term would expire in 2011. Hyland’s nomination has been
referred to the Committee on Banking, Housing and Urban Affairs and awaits further
action.

TEXAS CONVERSION CASES SETTLED

On August 31, 2005, Chairman Johnson announced that the NCUA had settled the
lawsuit filed against the agency by Community Credit Union of Plano, Texas. Another
Texas credit union, OmniAmerican Credit Union, had also joined the lawsuit prior to the
settlement. NCUA had originally rejected the credit union’s membership vote to convert
to a mutual savings bank. The settlement allowed the $1.4 billon charter switch to
proceed.




                                           6
OIG Semiannual Report                                                      September 2005


   FEDERALLY INSURED CREDIT UNION HIGHLIGHTS


C
       redit unions submit quarterly call reports (financial and operational data) to the
       NCUA. An NCUA staff assessment of the June 30, 2005, quarterly call reports
       submitted by all federally insured credit unions found that virtually all key
       financial indicators were stable.


KEY FINANCIAL INDICATORS STABLE

Looking at the June 30, 2005 quarterly statistics for major balance sheet items and key
ratios shows the following for the nation’s 8,871 federally insured credit unions: assets
grew 3.51 percent, or $22.7 billion; net worth to assets ratio increased from 10.96 to
11.04 percent; the loan to share ratio increased from 74.49 percent to 75.93 percent; the
delinquency ratio decreased from .72 to .65 percent; and credit union return on average
assets increased from .91 percent to .93 percent.


SAVINGS INCREASED

Total share accounts increased 2.9 percent, or $16.1 billion. Regular shares comprise 35
percent of total share accounts; share certificates comprise 24 percent; money market
shares comprise 18 percent; share draft accounts comprise 13 percent; and 10 percent is
in other share accounts.


LOANS AND INVESTMENTS ALSO INCREASED

Loan growth of 4.89 percent resulted in an increase in total loans by $20.2 billion. First
mortgage real estate loans increased 5.4 percent; used auto loans increased 2.6 percent;
other real estate loans increased 8.7 percent; unsecured credit card loans decreased 1.8
percent; all other unsecured loans decreased .8 percent; new auto loans increased 7.4
percent; and all other loans increased 4.6 percent. First mortgage real estate loans are the
largest single asset category with $137.1 billion accounting for 31.5 percent of all loans.
Total investments increased $2.4 billion or 1.5 percent. Investments with maturities less
than one year account for 49.3 percent of all credit union investments.




                                             7
OIG Semiannual Report                                                   September 2005



                      LEGISLATIVE HIGHLIGHTS
CHAIRMAN JOHNSON OFFERS RECOMMENDATIONS FOR PROPOSED
REGULATORY RELIEF BILL

Although the House passed regulatory relief legislation last Congress, the Senate did not
then take the matter up. Consequently the 109th Congress is considering the issue again.
On June 9, 2005, Chairman Johnson testified before the House Subcommittee on
Financial Institutions and Consumer Credit, recommending specific credit union
provisions in any regulatory relief bill. Subsequently, at the Senate Committee on
Banking, Housing and Urban Affairs hearing held on June 21, 2005, Chairman Johnson
provided that Committee with NCUA’s recommendations for a regulatory relief bill
Senator Crapo (R-ID) is assembling. At that hearing, Chairman Johnson also presented
the case for risk-based Prompt Corrective Action (PCA) for federally insured credit
unions and urged the Committee to include it in any forthcoming regulatory relief
legislation.

NCUA ISSUES REGULATION IMPLEMENTING NEW POST-EMPLOYMENT
RESTRICTIONS

On December 17, 2004, Congress enacted Public Law 108-458 creating new post-
employment restrictions for certain federal employees who examine banks and credit
unions. On July 21, 2005, NCUA presented a proposed rule to implement the new, post-
employment restrictions that will apply to certain senior NCUA examiners starting
December 17, 2005. The proposed rule prohibits senior NCUA examiners, for a year
after leaving NCUA employment, from accepting employment with a credit union if they
had continuing, broad responsibility for examination of that credit union for two or more
months during their last 12 months of NCUA employment.

HOUSE INTRODUCES “CREDIT UNION REGULATORY IMPROVEMENTS
ACT OF 2005”

On May 12, 2005, House Financial Services Committee members Edward Royce (R-CA)
and Paul Kanjorski (D-PA) introduced H.R. 2317, the “Credit Union Regulatory
Improvements Act” (CURIA). The proposed legislation would, among other things,
allow the NCUA to develop a modern risk-based PCA system; raise from 12.25% to 20%
of assets the cap placed on credit union members business lending; exclude from the new
cap, loans under $100,000 and those made to nonprofit religious organizations; improve
credit union leasing arrangements of Federal land in underserved communities; and allow
federal credit unions to provide check cashing money transfer services to individuals
within the credit union’s field of membership.




                                           8
OIG Semiannual Report                                                    September 2005


ADVERSE LEGISLATION WITH REGARD TO CONVERSIONS OF INSURED
CREDIT UNIONS INTRODUCED

Representative Patrick McHenry (R-NC) and others introduced adverse legislation,
“The Credit Union Charter Choice Bill,” H.R. 3206, on July 12, 2005, to reduce NCUA
authority with regard to conversions of insured credit unions to mutual savings bank
charters. Specifically, the legislation would: amend the Federal Credit Union Act to
repeal requirements governing oversight by the NCUA of the member vote concerning
charter conversions of credit unions to mutual savings banks or savings associations;
revamp requirements governing credit union notification to the NCUA Board of the
intent to convert; set forth an NCUA Board approval process regarding materials
submitted by converting credit unions; require the member vote on a proposed conversion
to be conducted by secret ballot, with an independent inspector of elections appointed by
the converting credit union to receive and tally the votes; require the Board of Directors
of the converting credit union to certify vote results; and deny the NCUA Board any
further review or approval authority over the conversion process, absent fraud or reckless
disregard for fairness during the voting process that affects the vote outcome.




                                            9
OIG Semiannual Report                                                                September 2005



                 OFFICE OF THE INSPECTOR GENERAL


T     he Office of the Inspector General was established at the NCUA in 1989 under the
      authority of the Inspector General Act of 1978, as amended in 1988. The staff
      consists of the Inspector General, Counsel to the Inspector General, Assistant
Inspector General for Audits, Director of Investigations, two Senior Auditors, Senior
Information Technology Auditor, and Office Manager.

The Inspector General reports to, and is under the general supervision of, the NCUA
Board. The Inspector General is responsible for:

1. Conducting, supervising, and coordinating audits and investigations of all NCUA
   programs and operations;

2. Reviewing policies and procedures to ensure efficient and economic operations as
   well as preventing and detecting fraud, waste, and abuse;

3. Reviewing existing and proposed legislation and regulations to evaluate their impact
   on the economic and efficient administration of agency programs; and

4. Keeping the NCUA Board and the Congress apprised of significant findings and
   recommendations.



                                                           William A. DeSarno
                                                            Inspector General



                                         Sharon Regelman
                                          Office Manager



                                James Hagen                                          Sharon Separ       Anne Voegele
                              Asst IG for Audits                                    Counsel to the IG     Director of
                                                                                                        Investigations


  Charles Funderburk, CPA   Dwight Engelrup, CPA            Tammy Rapp, CPA, CISA
         Sr Auditor              Sr Auditor                     Sr IT Auditor




                                                   10
OIG Semiannual Report                                                  September 2005



                               AUDIT ACTIVITY
AUDIT REPORTS ISSUED

NCUA’s Process for Reviewing Federally Insured State Chartered Credit Unions
OIG-05-06 June 8, 2005

We completed our review of NCUA’s process for reviewing federally insured state
chartered credit unions. Our three review objectives were to: (1) determine whether the
NCUA process for determining and managing the risk that federally insured state
chartered credit unions pose to the share insurance fund is adequate; (2) determine
whether NCUA varies its approach depending on the level of risk presented by the credit
unions in the various state supervisory authority (SSA) programs; and (3) determine
whether NCUA performs formal reviews of all SSA examination reports and how the
agency handles identified problems.

Our review found the NCUA process for managing risk to be adequate. The results of
our review also indicated that NCUA varies its approach based on the level of risk
presented by the credit unions in the various state programs. In addition, we found that
NCUA was adequately reviewing state examination reports. Our data review and
analysis showed that 99.7 percent of all state chartered credit unions had a formal NCUA
exam review or joint examination by NCUA between January 1, 2001 and December 31,
2003. Further, NCUA and SSAs agreed on composite CAMEL ratings 94 percent of the
time.

Our report includes one matter for consideration by NCUA – to better leverage the
resources NCUA devotes to reviews of state chartered credit unions.

Independent Evaluation of the National Credit Union Administration Information
Security Program 2005
OIG-05-07 September 30, 2005

The Federal Information Security Management Act (FISMA) permanently reauthorized
the framework laid out in the Government Information Security Reform Act of 2000
(GISRA) which expired in November 2002. FISMA continues annual review and
reporting requirements introduced in GISRA.

During 2005, the OIG engaged Cotton & Company LLP to conduct an independent
evaluation of NCUA’s information systems (IS) and security program and controls for
compliance with FISMA, Title III of the E-Government Act of 2002. This report
discusses the effectiveness of IS controls to protect and secure NCUA's information
technology (IT) infrastructure and assets.

Our work identified two issues that can be classified as significant deficiencies in
NCUA’s security structure. While the Chief Information Officer (CIO) has initiated


                                          11
OIG Semiannual Report                                                     September 2005

projects to address these issues, both of the significant deficiencies concerning NCUA’s
security program remain open and are being reported for the third consecutive year.

The first issue involves several weaknesses related to NCUA’s General Support System
(GSS) Certification and Accreditation (C&A) and its technical components. This is
significant, because every major application relies on the security of the operating system
and network infrastructure on which it resides. Prevention of unauthorized access is
necessary to ensure infrastructure security. NCUA’s general support system continues to
operate under an interim accreditation based on several weaknesses identified during the
formal certification process in 2004.

The second issue involves sensitive information stored on examiners’ laptop computers
that had not been addressed as part of NCUA’s information security program. The OCIO
recently upgraded the examination application which included requiring all examination
data stored on laptops to be encrypted. When completed, this project will represent an
improvement in the protection of sensitive data. Training and implementation for this
project will not be completed until November 1, 2005. Therefore, we were not able to test
the effectiveness of the program as part of the 2005 review.

While we noted other weaknesses in IT controls, we concluded the two conditions
described above are the most significant to NCUA.

OIG Report to OMB on NCUA’s Compliance with the Federal Information Security
Management Act 2005
OIG-05-08 September 30, 2005

This report contains a summary of our evaluation of the NCUA’s information security
program presented in the OMB prescribed format.

The OIG issued two reports during the past year that reported on the testing of the
effectiveness of information security and internal controls:

   •   On September 30, 2005, the OIG issued a report containing an Independent
       Evaluation of the NCUA’s Information Security Program - 2005. The content of
       the independent evaluation report supports the conclusions presented in this
       report.

   •   On March 15, 2005, the OIG issued the Financial Statement Audit Report for the
       year ended December 31, 2004. The purpose of this audit was to express an
       opinion on whether the financial statements were fairly presented. In addition, the
       internal control structure was reviewed and an evaluation of compliance with laws
       and regulations was performed as part of the audit. The result of this audit was an
       unqualified opinion, stating that the financial statements were presented fairly.
       Although there were no material weaknesses identified during the review of the
       internal control structures pertinent to financial reporting, fourteen




                                            12
OIG Semiannual Report                                                      September 2005

       recommendations were made relating to weaknesses in the financial and
       information security areas.

Audit Memorandum: Employee State Tax Withholdings
OIG-05-09 September 30, 2005

The NCUA OIG performed a proactive review of NCUA employees’ compliance with
personal state income tax obligations. We initiated this project as a joint audit and
investigative engagement. The overall objective was to identify any NCUA employees
who may be delinquent in paying state income taxes.

The scope of this engagement was to review and analyze employee state tax withholdings
in 2004, as reported on employee Internal Revenue Service (IRS) W-2 forms. The OIG
may conduct a separate analysis regarding employees’ Federal tax withholdings pending
information requested from the Department of the Treasury’s Internal Revenue Service.

There were a total of 1,011 employee W-2 records for 2004. Ten states do not have a
personal income tax on employee wages. We identified five employees who had $0 state
income tax withheld and resided in a personal income taxable state. In addition, we
identified two employees who had an effective state tax withholding rate of 0%. These
two employees resided in personal income taxable states. Finally, we identified four
employees who had post office boxes – one potential fraud indicator - listed for their
addresses. These post office box addresses were in non-taxable states but were located
approximately 50 miles or less from a taxable state border.

Overall, our review revealed relatively few employees with no state withholding taxes or
questionable post office box addresses. The few instances of questionable withholdings
were referred to the OIG Director of Investigations for investigative consideration.

Risk Based Scheduling

In addition to the above audits, we also conducted a survey of the NCUA’s Risk Based
Scheduling program. Our objective was to determine if NCUA Regional Offices are
effectively and consistently scheduling federally insured credit unions for examination in
accordance with national guidance. Specifically, the survey was aimed at answering the
following questions: is scheduling consistently applied among regions; did deferred credit
unions meet criteria to be deferred; and, were there credit unions that met the criteria that
did not get deferred?

In conducting our survey we found that NCUA’s Office of Examination and Insurance
(E&I) had recently conducted similar work to obtain answers to the objectives we had
proposed. We conducted interviews with key personnel and reviewed the reports
developed by E&I on the subject. We determined that the work conducted was
substantially similar in nature to our objectives and that this area did not warrant an audit
of the subject matter.




                                             13
OIG Semiannual Report                                                      September 2005



AUDITS IN PROGRESS

Risk Focused Exams

The National Credit Union Administration (NCUA) expends significant resources to
ensure the safe and sound operation of Federal credit unions. The major NCUA effort in
this area is the performance of risk focused examinations (RFE) and supervision. The
current RFE program was initiated in 2002.

The Office of Inspector General (OIG) will be gathering information for a national
review of certain aspects of the RFE program. The survey phase objective is to evaluate
NCUA’s process for identifying and addressing risk factors through the examination
process for CAMEL 3 rated Federal credit unions.

Share Insurance Fund

The National Credit Union Share Insurance Fund reports insurance losses due to failed
federally insured credit unions. Several NCUA offices are involved in recording and
reporting of such losses. The NCUA OIG performed an audit survey to assess the
accuracy and reliability of reported insurance losses for credit unions that failed in 2004.

We assessed inherent risks, reviewed insurance loss recording and reporting procedures,
and compared credit union failures and insurance losses among various reports. We also
conducted an analysis of the data provided and conducted interviews with management to
address any discrepancies we identified. We issued a draft report to management for
comment in September 2005.


SIGNIFICANT AUDIT RECOMMENDATIONS ON WHICH CORRECTIVE
ACTION HAS NOT BEEN COMPLETED

As of September 30, 2005, there were no significant audit recommendations on reports
issued over six months ago that have not been either fully implemented or are in the
process of implementation.




                                            14
OIG Semiannual Report                                                   September 2005



                       INVESTIGATIVE ACTIVITY

      n accordance with professional standards and guidelines established by the

 I    Department of Justice, the OIG performs investigations of criminal, civil, and
      administrative wrongdoing involving agency programs and personnel. Our
      investigative program focuses on activities designed to promote economy,
effectiveness, and efficiency, as well as fighting fraud, waste, and abuse in agency
programs. In addition to our efforts to deter misconduct and promote integrity awareness
among agency employees, we investigate referrals and direct reports of employee
misconduct. Investigations may involve possible violations of regulations regarding
employee responsibilities and conduct, Federal criminal law, and other statutes and
regulations pertaining to the activities of NCUA employees.

Moreover, we receive complaints from credit union members and officials that involve
NCUA employee program responsibilities. We examine these complaints to determine
whether there is any indication of NCUA employee misconduct. If not, we refer the
complaint to the appropriate regional office for response, or close the matter if contact
with the regional office indicates that the complaint has already been appropriately
handled.

OIG HOTLINE CONTACTS

The OIG maintains a toll free hotline to enable employees and citizens to call with
information about waste, fraud, abuse or mismanagement involving agency programs or
operations. We also receive complaints through an off-site post office box, electronic
mail, regular U.S. mail, and facsimile messages. All information received from any of
these sources is referred to as a hotline contact. The OIG hotline program is handled by
our Office Manager, under the direction of our Director of Investigations. The majority
of hotline contacts are from consumers seeking help with a problem with a credit union.
These contacts are referred to the appropriate NCUA regional office for assistance.
During this reporting period, we referred 89 consumer complaints to regional offices.

PHISHING ACTIVITY

During this reporting period, our hotline program experienced a significant increase in
complaint activity. Much of this was due to a rash of Phishing attempts made by
individuals using the NCUA name and logo in an effort to obtain personal and financial
information from credit union members. Our office alone received over 600 complaints
from citizens reporting suspected Phishing attempts. We responded directly to many of
the individuals and referred their complaints to the NCUA Chief Information Officer
(CIO).

The CIO, working in conjunction with the FBI; Secret Service; Department of Homeland
Security; United States Attorney’s Office (USAO); private consultants; credit unions;


                                           15
OIG Semiannual Report                                                     September 2005

banks; and card services network providers, have been working on this issue for several
months and continue to do so. In addition, the agency moved quickly to educate and
publicize the Phishing scams to as wide an audience as possible. This was achieved
through press releases, letters to credit unions, and a notice prominently displayed on the
homepage of NCUA’s website. NCUA collects Phishing attack information through the
agency’s fraud hotline, the IG’s hotline and email links provided on the NCUA website.
NCUA computer systems, websites and networks have not sustained any damage,
destruction or infiltration as a result of these Phishing attempts.

INVESTIGATIONS

During the last reporting period the Office of Investigations experienced a marked
increase in the number of matters referred or reported for investigative consideration.
During this period we initiated eight new investigations and closed six.

Use of Non-Public Information

One investigation involved allegations that an NCUA Examiner used information gained
by reason of her employment to benefit personally from a potential dividend being paid
as a result of a merger of two credit unions. The case was initially accepted for criminal
prosecution and worked at the direction of the USAO. The investigation determined that
the employee had opened a credit union account after learning through her job as an
Examiner that the credit union was considering a merger. The higher than average level
of retained earnings of the merging credit union made it more likely that a generous
merging dividend would be paid to members with higher account balances. The OIG
obtained considerable evidence, much of it through Grand Jury Subpoena, suggesting that
the employee had intentionally diverted considerable funds from accounts she held with
other financial institutions into her and her husband’s credit union accounts, which would
have resulted in a significant merging dividend once the institution completed the merger.
During her interview with the OIG, the employee confessed to augmenting her and her
husband’s credit union accounts in order to increase the merging dividend. Ultimately,
the USAO declined prosecution in favor of administrative action and the agency
proposed the removal of the employee. The employee resigned. Additional issues
developed during this investigation were referred to the Department of Justice for further
investigative consideration.

During this same investigation, the OIG learned that another NCUA Examiner had also
allegedly opened an account at the same credit union in order to benefit from the
potential merging dividend. The OIG conducted an investigation of this employee and
determined that while he had opened an account, there was insufficient evidence to
conclude it had been done with the intention of benefiting from a potential merging
dividend. On the basis of his actions creating an appearance of misuse of public
information, the NCUA proposed a three day suspension of the employee which was later
mitigated to no suspension.




                                            16
OIG Semiannual Report                                                      September 2005



Post Employment Ethics Issues

The OIG closed one matter through the issuance of a Management Implication Report
(MIR) regarding the agency’s process of providing ethics advice, specifically related to
post-employment restrictions, to senior agency officials. The MIR was issued as a result
of an allegation involving a former NCUA Board Member. The OIG received a
complaint alleging that the Board Member’s contacts with a trade association regarding
prospective employment constituted a possible violation of criminal conflict of interest
statutes and the Standards of Ethical Conduct for Employees of the Executive Branch.

Our investigation into this matter ultimately concluded that the subject’s contacts with the
prospective employer did not amount to “negotiations” and therefore, did not trigger a
conflict of interest or ethics violation. The subject had, however, unknowingly interacted
with members of the trade association in a way that technically violated conflict of
interest statutes related to “seeking employment.” The intricacies and peculiarities of the
rules governing current Federal employees seeking employment underscore the need for
periodic refreshers and updates for employees planning to retire or leave Federal service.
During the investigation, we learned that the employee had on only one occasion—at the
outset of his employment with NCUA a number of years previously -- received ethics
information pertaining to rules for seeking employment or post employment activities.
The information provided at that time was in the form of written handouts on numerous
ethics issues, including conflicts of interest and seeking employment. More recently,
however, even while agency ethics officials knew that the employee’s departure from the
agency was imminent, he was not provided additional or current guidance regarding his
employment search.

In the course of reviewing this matter, the OIG referred to a similar matter that was the
subject of an OIG investigation in 1997. That investigation concerned whether a senior
agency official participated in particular matters at the same time he was negotiating for
employment with a credit union trade association. In that case, the OIG made the
recommendation that the Designated Agency Ethics Official (DAEO) should take a
proactive approach in providing ethics advice to Board members, Board staff, and other
high level employees with respect to outside and prospective employment. Responding
to our recommendations in 1997, the NCUA then-Executive Director (ED) agreed to the
recommendation and issued a reprimand to the DAEO on the issue.

Despite the OIG’s recommendations and the agency’s response to those
recommendations, we were unable to find that the NCUA DAEO thereafter provided
particularized ethics advice to senior officials planning to leave Federal service and return
to private employment, in writing or otherwise. The DAEO at the time of this
investigation (now retired) confirmed to the OIG that the NCUA did not have in place an
established process by which outgoing senior staff and board members are made aware of
potential conflicts of interest in seeking post-NCUA employment. The United States
Office of Government Ethics emphasizes that employees planning to leave government
service and return to the private sector should seek complete and specific advice from



                                             17
OIG Semiannual Report                                                   September 2005

their agency’s ethics official, as early as possible. The culmination of the 1997 OIG
investigation was our recommendation that it is likewise the responsibility of NCUA’s
DAEO to assume a proactive role in providing such advice.

Consequently, we reiterated in this report our previous recommendation that the DAEO
take a more active role in advising employees regarding rules for seeking employment
and post employment activities.

False Statements

One investigation involved an allegation that a career NCUA Examiner had provided
false information during a routine background investigation, and when questioned about
the alleged false information, reiterated his original false statement. The matter was
referred to the OIG for investigation. The OIG investigation developed numerous
instances spanning twenty years of the employee providing false or misleading
information on official documents. The employee was interviewed by the OIG under a
Kalkines agreement during which he provided additional false and misleading
information. The agency proposed the removal of the employee. As of the date of this
report, there has been no final determination.

During this investigation, the OIG learned that the agency’s Office of Human Resources
(OHR) had been routinely providing the names of witnesses identified in OIG Reports of
Investigation in proposed disciplinary action letters resulting from our investigations.
Contrary to the prohibition we include as a footer on each page of every report, these
disclosures were without our knowledge or authorization. In this case, the Inspector
General became aware that the OHR was planning to send a letter of proposed removal to
an employee who had been the subject of an OIG investigation. The letter contained the
name of a witness in the investigation. The Inspector General notified the agency in
writing that he did not authorize the release of the witnesses’ name, and the OHR
disregarded this direction and released the name and large portions of the witness’
testimony to the subject of the investigation. The Inspector General made his position
clear to agency management that the release of such information contained in OIG
reports is the decision of the OIG and that future proposal letters from the agency based
on OIG Reports of Investigation must not include witness names without the
authorization of the OIG.

Also during this investigation, the issue arose of OIG staff’s access to requested
documents. A document was requested and withheld, at the direction of the same
individual on whom we reported a similar incident in our October 2000 Semiannual
Report. The Inspector General reported this incident to the head of the agency, and made
clear the OIG authority to have access, upon request and without delay, to agency records
and information.




                                           18
OIG Semiannual Report                                                    September 2005



Time and Attendance Fraud

One investigation involved an allegation that an employee had been falsifying attendance
records and had been using other employees to set up her work station in order to create
the false impression that she was present at work. The subject employee and two other
employees were interviewed and admitted to the allegations. The subject employee was
given a proposed ten day suspension, which was later mitigated to a five day suspension.
The two other employees were given letters of reprimand for their actions in assisting the
subject employee.

Misuse of Government Property

One investigation involved allegations that an employee had used the agency computer to
send sexually explicit material to another employee. The investigation found the
allegation to be unsubstantiated.

Theft

The OIG closed to file another investigation into the theft of an agency computer at the
NCUA Headquarters building in Alexandria, Virginia. Agency personnel initially
believed the removal of the computer was done as a prank and the matter was not
reported to the OIG until a few days after the theft had occurred. Once reported, the OIG
reviewed video security footage and interviewed staff. No suspects were developed.




                                           19
OIG Semiannual Report                                                   September 2005



          LEGISLATIVE AND REGULATORY REVIEWS


Section 4(a) of the Inspector General Act requires the Inspector General to review
existing and proposed legislation and regulations relating to the programs and operations
of the NCUA and to make recommendations concerning their impact. Moreover, we
routinely review proposed agency instructions and other policy guidance, in order to
make recommendations concerning economy and efficiency in the administration of
NCUA programs and operations and the prevention and detection of fraud, waste and
abuse.

During the reporting period, the OIG reviewed 20 items, including proposed and final
changes to legislation and regulations and several NCUA issuances. The OIG submitted
no comments on the items reviewed.

         SUMMARY OF STATUTES AND REGULATIONS REVIEWED
       Legislation                              Title
 H.R. 3737         “Special Inspector General for Hurricane Katrina Recovery
 (Proposed)        Act”
 H.R. 3805         “Special Office of the Inspector General for Natural Disaster
 (Proposed)        Response and Reconstruction within the DHS OIG”

 H.R. 3810                “Special Inspectors General Council for Hurricane Katrina”
 (Proposed)

 S. ___ (Proposed)        “Special Inspector General for Relief and Reconstruction Act
                          of 2005”
 H.R. 3505                “Financial Services Regulatory Relief Act of 2005”
 H.R. 2317                “Credit Union Regulatory Improvements Act of 2005”
 H.R. 1042                “Net-Worth Amendment for Credit Unions Act”
  Regulations/Rulings                                 Title
 12 CFR 741.6             “Requirements for Insurance—Quarterly Financial and
                          Statistical Report”
 12 CFR Part 796          “Post-Employment Restrictions for Certain NCUA
                          Examiners”
 12 CFR Parts 701 and     “Uninsured Secondary Capital Accounts”
 741
 12 CFR Part 742          “Regulatory Flexibility Program”
 12 CFR Part 717          “Fair Credit Reporting Medical Information Regulations”
 12 CFR Parts 713 and     “Fidelity Bond and Insurance Coverage for Federal Credit
 741                      Unions”
 12 CFR Part 712          Final Rule: “Audit Requirement for Credit Union Service
                          Organizations”


                                           20
OIG Semiannual Report                                             September 2005


12 CFR Part 723         “Member Business Loans”
                        Federal Credit Union Bylaws—Request for Comment
5 CFR Part 550          Pay Administration (General)

   Agency Issuances                                Title
IRPS 05-01              “Sales of Nondeposit Investments”
Instruction 5000.15     Risk Based Examination Scheduling
(Rev. 1)
Instruction 5000.18     Hurricane Katrina Examination and Supervision Program
                        Flexibility
Instruction 13500.07    Security Backup of Files on NCUA Personal Computers




                                       21
OIG Semiannual Report                                                       September 2005



                                      TABLE I

                    INSPECTOR GENERAL ISSUED REPORTS
                         WITH QUESTIONED COSTS

                                                   Number of   Questioned     Unsupported
                                                    Reports      Costs           Costs

A.     For which no management
       decision had been made by the                  0           $0               $0
       start of the reporting period.

B.     Which were issued during the
       reporting period.                              0            0               0

       Subtotals (A + B)                              0            0               0

C.     For which management decision
       was made during the reporting                  0            0               0
       period.

       (i) Dollar value of disallowed costs           0            0               0

       (ii) Dollar value of costs not                 0            0               0
       disallowed

D.     For which no management
       decision has been made by the end              0            0               0
       of the reporting period.

E.     Reports for which no management
       decision was made within six                   0            0               0
       months of issuance.


Questioned costs are those costs the OIG has questioned because of alleged violations of
laws, regulations, contracts, or other agreements; findings which at the time of the audit
are not supported by adequate documentation; or the expenditure for the intended purpose
is unnecessary or unreasonable.

Unsupported costs (included in "Questioned Costs") are those costs the OIG has
questioned because of the lack of adequate documentation at the time of the audit.




                                              22
OIG Semiannual Report                                                  September 2005



                                    TABLE II

               INSPECTOR GENERAL ISSUED REPORTS
      WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                           Number of          Dollar
                                                            Reports           Value

 A.    For which no management decision had been
       made by the start of the reporting period.               0               $0

 B.    Which were issued during the reporting period.           0               0

       Subtotals (A + B)                                        0               0

 C.    For which management decision was made
       during the reporting period.                             0               0

       (i) Dollar value of recommendations agreed to
       by management.                                          N/A             N/A

       (ii) Dollar value of recommendations not
       agreed to by management.                                N/A             N/A

 D.    For which no management decision was made
       by the end of the reporting period.                      0               0

 E.    For which no management decision was made
       within six months of issuance.                           0               0


Recommendations that "Funds to be Put to Better Use" are those OIG recommendations
that funds could be used more efficiently if management took actions to reduce outlays,
de-obligate funds from programs/operations, avoid unnecessary expenditures noted in
pre-award reviews of contracts, or any other specifically identified savings.




                                          23
OIG Semiannual Report                                        September 2005



                              TABLE III
                     SUMMARY OF OIG ACTIVITY
              APRIL 1, 2005 THROUGH SEPTEMBER 30, 2005

PART I – AUDIT REPORTS ISSUED
Report                                                            Date
Number     Title                                                  Issued
OIG-05-06  NCUA’s Process for Reviewing Federally Insured State   6/08/2005
           Chartered Credit Unions
OIG-05-07  Independent Evaluation of the National Credit Union    9/30/2005
           Administration Information Security Program 2005
OIG-05-08  Report to OMB on NCUA’s Compliance with the Federal    9/30/2005
           Information Security Management Act 2005
OIG-05-09  Audit Memorandum: Employee State Tax Withholdings      9/30/2005

PART II – AUDITS IN PROGRESS (as of September 30, 2005)
           Risk Focused Exams
           Share Insurance Fund Losses




                                   24
OIG Semiannual Report                                              September 2005



             INDEX OF REPORTING REQUIREMENTS

 SECTION                       DATA REQUIRED                        PAGE REF
  4(a)(2)    Review of Legislation and Regulations                     20
  5(a)(1)    Significant Problems, Abuses, or Deficiencies             11
             relating to the administration of programs and
             operations disclosed during the reporting period.
  5(a)(3)    Recommendations with Respect to Significant                11
             Problems, Abuses, or Deficiencies.
  5(a)(3)    Significant Recommendations Described in Previous          14
             Semiannual Reports on Which Corrective Action Has
             Not Been Completed.
  5(a)(4)    Summary of Matters Referred to Prosecution               None
             Authorities and Prosecutions, Which Have Resulted.
  5(a)(5)    Summary of Each Report to the Board Detailing              ii
             Cases Where Access to All Records Was Not
             Provided or Where Information Was Refused.
  5(a)(6)    List of Audit Reports Issued During the Reporting          24
             Period.
  5(a)(7)    Summary of Particularly Significant Reports.               11
  5(a)(8)    Statistical Tables on Audit Reports With Questioned        22
             Costs.
  5(a)(9)    Statistical Tables on Audit Reports With                   23
             Recommendations That Funds Be Put To Better Use.
  5(a)(10)   Summary of Each Audit Report Issued Before the           None
             Start of the Reporting Period for Which No
             Management Decision Has Been Made by the End of
             the Reporting Period.
  5(a)(11)   Description and Explanation of Reasons for any           None
             Significant Revised Management Decision Made
             During the Reporting Period.
  5(a)(12)   Information Concerning Significant Management            None
             Decisions With Which the Inspector General is in
             Disagreement.




                                        25
OIG Semiannual Report                                                   September 2005




                         WE WANT TO HEAR FROM YOU


                Call our toll-free hotline to report
                      fraud, waste, or abuse:

                           1-800-778-4806
                        WASHINGTON METRO AREA
                            703-518-6357

                                     or write:

               National Credit Union Administration
                  Office of the Inspector General
                         P.O. Box 25705
                   Alexandria, VA 22313-5705
       You may call ANONYMOUSLY, or request that YOUR call be kept
                          CONFIDENTIAL


  OIG reports and other information are now available via the Internet. The address is
                                  www.ncua.gov/oig




                                          26
